        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Management Alert
Western Area Power
Administration's Control and
Administration of American
Recovery and Reinvestment Act
Borrowing Authority




OAS-RA-12-01                     November 2011
                                   Department of Energy
                                     Washington, DC 20585
                                       November 4, 2011


MEMORANDUM FOR THE ADMINISTRATOR, WESTERN AREA POWER
               ADMINISTRATION


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Management Alert on "The Western Area Power
                         Administration's Control and Administration of American Recovery
                         and Reinvestment Act Borrowing Authority"

IMMEDIATE CONCERN

Despite internal control and administration issues with its first project authorized under its
$3.25 billion American Recovery and Reinvestment Act of 2009 (Recovery Act) borrowing
authority, the Department of Energy's (Department) Western Area Power Administration
(Western) is preparing to move forward with other transmission infrastructure projects. Western
officials acknowledged that there were a number of lessons to be learned from its first project,
the Montana Alberta Tie Line (MATL), a transmission line funded in large part by a
$161 million Federal financing agreement. Because of a variety of problems, the project is
estimated to be 2 years behind schedule and $70 million over budget; essentially out of funds;
and, currently at a standstill, with no progress being made. Western officials expect construction
to resume in the near future, as MATL's parent company has now been acquired by a reportedly
well-capitalized Canadian company that has pledged to complete the project.

Western had not completed a formal root-cause analysis and corrective action plan designed to
ensure more effective program safeguards are in place going forward. Because Western has
committed $25 million in developmental funding to a potential $3 billion project that could
ultimately require an investment of $1.5 billion in Recovery Act borrowing authority, we are
issuing this report as a management alert. While Western officials told us they believed that
sufficient protections were in place for its initial commitment in this new project, we noted that
Western is also considering entering into other agreements that would require the commitment of
substantial additional Federal funds. In light of these prospective commitments and to help
reduce the risk of taxpayer exposure to significant project delays and potential losses, we
concluded that Western should formally evaluate all the difficulties it experienced with its first
Recovery Act-funded transmission infrastructure project before exercising additional borrowing
authority. This will help ensure that corrective actions are sufficient to prevent recurrence of
problems on future projects.

BACKGROUND

Under the Recovery Act, Western was granted $3.25 billion in borrowing authority to help build
transmission infrastructure. Western is permitted to use its borrowing authority in perpetuity and
may request forgiveness, if necessary, for amounts outstanding at the end of the useful life of a
project. To meet the Recovery Act's goals of promoting job creation and economic recovery,
Western's Transmission Infrastructure Program (Program) first used its borrowing authority to
execute a financing agreement with Montana Alberta Tie Ltd. and MATL LLP (jointly referred
to as MATL) in October 2009, to construct a "shovel-ready" 214-mile transmission line between
Great Falls, Montana, and Lethbridge, Alberta, Canada. The line is intended to provide
interconnection for proposed wind power generation farms in Montana. The MATL companies,
wholly-owned subsidiaries of Tonbridge Power Inc., a Canadian transmission developer,
contracted with an independent contractor to build the transmission line.

Western financed $161 million of the original $213 million transmission project's estimated cost,
with $52 million contributed from other sources, including subordinated non-federal loans.
MATL's repayment of the Western financing was to begin after the project became operational
and was generating revenue.

OBSERVATIONS AND CONCLUSIONS

Western had not implemented the necessary safeguards to ensure its commitment of funding was
optimally protected. Specifically, Western had not initially required MATL to establish:

  •    An earned value management system to provide timely, integrated cost and schedule
       information to allow Western to adequately monitor the progress of the project. In
       February 2010, Western informed MATL that it expected the company to use earned
       value management to report integrated budget and schedule information. However,
       MATL continued to provide inadequate information until March 2011, or over a year
       later. While Western worked aggressively with MATL in an attempt to understand and
       ameliorate the impact of delays, in the absence of useful earned value management data,
       it was not optimally positioned to determine the extent of the delays and the potential for
       cost overruns; and,

  •    A risk-based management reserve to fund unanticipated cost overruns. In fact, MATL
       did not establish a reserve until nearly a year after the start of the project. Western
       officials reported that MATL's reserve would soon be depleted.

Western became aware of these issues and engaged in extensive discussions with MATL and
other project stakeholders to get the project back on track. However, it had not completed a
formal root-cause analysis documenting the underlining reasons for project delays and a formal
plan to ensure adequate internal controls are sufficient for this and future projects.

The results of our work indicated that Western's lack of lending experience contributed to the
issues we identified. Further, although we did not confirm their assertions, certain Western
officials indicated that they encountered pressure from the Department to spend Recovery Act
funds expeditiously. We could not establish these assertions as a direct cause of the MATL
situation. However, Western officials acknowledged that there are lessons learned from their
first lending experience, including the need for earned value management and establishment of
an adequate management reserve at the beginning of a project.



                                                2
In addition to these project management issues, we also noted an impending gap in funding
available to operate the Program. Existing funding will be depleted in Fiscal Year (FY) 2012
and revenues from MATL and other new projects will not be available to fund ongoing costs of
the Program for several years. Western is exploring alternatives for providing Program funding.

                                    Project Management Issues

Not all of the issues causing delays and cost overruns were within Western's control. Since the
beginning of the project, MATL had encountered legal difficulties securing rights-of-way for the
land needed to construct the transmission line. In fact, as of October 2011, Tonbridge reported
MATL had not yet secured the use of 79 parcels of land in Montana to complete the project.
Officials told us the acquisition difficulties were primarily attributable to landowner lawsuits and
a December 2010, Montana court decision that curtailed the rights of utilities to condemn
property for development of transmission lines. However, identifying and correcting weaknesses
in project management and schedule/budget reporting were within Western's purview.

We believe that the project would have benefited had Western required that an earned value
management system be implemented by MATL at the beginning of the project to firmly establish
expectations. Additionally, while Western subsequently insisted MATL implement earned value
management, MATL continued to provide inadequate budget and schedule information for over
a year. A rigorous earned value management system, while no panacea, would have provided
additional information necessary to make mid-course corrections, allowing Western to impose
timely remedies to get the project back on track or reduce the taxpayers' exposure. These
remedies included withholding funds (which Western did to a limited extent) and declaring
MATL in default of the agreement for performance deficiencies.

In addition to right-of-way issues, work quality, safety and contract interpretation issues
negatively impacted progress. For example, MATL raised safety concerns regarding the
improper installation of transmission poles by its contractor. In addition, differing interpretations
of the contract between MATL and the construction contractor resulted in numerous and costly
change orders. In May 2011, work on the project was stopped as MATL and its contractor
entered binding arbitration to resolve their differences. Both parties subsequently agreed to
terminate the contract in August 2011. Considering the significance of these issues, earned value
management data would have contributed to Western's awareness of the extent of progress and
difficulties encountered by MATL.

Further exacerbating weaknesses in project management, Western did not initially require in its
financing agreement, and MATL had not established, a risk-based management reserve to fund
cost overruns resulting from unanticipated events such as delays in the acquisition of rights-of-
way and contractor performance issues. An industry standard practice, a management reserve is
a set-aside in which a portion of a budget is withheld to address uncertainties in cost estimates.
The Department emphasizes the importance of a management reserve in its loan guarantee
programs, and Western's own guidance likewise provides for such a reserve. Western officials
subsequently recognized the importance of establishing a reserve and in September 2010, nearly
one year after the financing agreement was executed; Western suggested MATL set-aside an
unanticipated vendor refund of $4.5 million in a management reserve. Coincidentally, in the
same month, MATL indicated projected cost overruns of $1.5 million in a monthly status report.

                                                 3
As of October 2011, Western officials reported that the management reserve had been depleted
and therefore would not be available to pay for project overruns currently estimated to be at least
$70 million. While it is unlikely that any reserve would have fully covered overruns of this
magnitude, an adequately funded risk-based reserve could have helped reduce the impact of the
difficulties encountered during this project.

                                      Program Funding Gap

In addition to specific project management issues disclosed during the audit, we noted that
Western is likely to experience a gap in funding to operate the Program, including activities such
as project selection and oversight. The Recovery Act initially provided Western with $10 million
in appropriated funding to establish and operate the Program until it became self-financing.
According to Western's estimates, the initial appropriation will be depleted sometime in FY 2012.
Once depleted, Western was expected to finance Program costs through proceeds generated by
funded projects. However, it is not clear when the MATL Project will be operational. Thus, it is
difficult to determine when Western will achieve self-financing of further Program costs. Had the
original completion date of May 2011 been met for the MATL Project, at least according to the
plan, Western would have received revenue shortly thereafter, and used it to cover Program
expenses.

If unable to obtain additional funding, Western may not be able to administer the Program which
currently has over $3 billion in borrowing authority available. Western is considering various
options including a supplemental appropriation request or additional borrowing, and told us it is
working closely with Department officials to meet Program cost requirements.

                                         Overall Impacts

Although it had the means to do so, Western chose not to take action to delay or terminate the
flow of funds to MATL. Contrary to its own risk mitigation plan that identified withholding
payment as an acceptable option should conditions warrant, Western officials initially told us
that pursuing this might further hinder the project's progress or lead to a bankruptcy filing by
MATL. But, by not aggressively exercising its available options, in our opinion, Western may
have increased taxpayers' financial exposure to this troubled project. Subsequently, in July 2011,
Western curtailed payments. As the project continues to accrue interest during the construction
phase, there is a risk that the total amount owed by MATL, including accrued interest, may
exceed the $161 million commitment.

The MATL experience to date raises questions about the sufficiency and effectiveness of internal
controls that Western had in place. The stalled wind power transmission project is clearly at risk
with the outcome uncertain. In the event of a project failure, Western and ultimately the U.S.
taxpayer could bear a large financial burden. While we acknowledge that Western officials were
actively engaged with MATL during the life of the project, we believe that more aggressive up
front efforts to monitor project performance and control use of Federal funds may have served to
better protect taxpayer interests.

Western has significant financial exposure on the project, having permitted MATL to expend
$152 million of the total $161 million as of July 2011, on a project encountering significant

                                                 4
delays and cost overruns. Since May 2011 the project has been at a standstill, is estimated to be
2 years behind schedule and may be as much as $70 million over budget. After reaching an
agreement to terminate its construction contract, MATL is now considering replacement
contractors. In June 2011, lacking adequate resources to cover projected cost overruns,
Tonbridge, MATL's parent company, disclosed a potential "going concern issue" in its Interim
Consolidated Financial Statements. In August 2011, Tonbridge announced it had entered into an
agreement to be acquired by Enbridge Inc. (Enbridge), a Canadian company involved in energy
delivery.

Under the agreement, approved by Tonbridge shareholders in September 2011 and by Canadian
regulators in October 2011, Enbridge is to acquire all of Tonbridge's outstanding common shares
and debt, and, provide the additional capital required for completion of the MATL Project.
Western officials told us that, due to performance issues, they could have declared the project in
default. Yet, MATL, Tonbridge and Enbridge had requested that Western not exercise its
financing agreement default options. And, Western officials agreed not to exercise its default
options during the pending acquisition. During a meeting to discuss a preliminary draft of our
report, Western officials noted they believed declaring MATL in default (certainly the most
aggressive option available at the time) would have put the taxpayers at greater financial risk.
They also noted that failing to fund material purchases like steel poles would have unalterably
impacted the project by removing MATL from the manufacturing queue.

                                          Path Forward

Going forward, Western will need to reach agreement with Enbridge on the terms and conditions
necessary to allow it to replace Tonbridge as the guarantor on MATL's financing agreement. For
example, to protect the taxpayer's interest, Western should ensure its interest in the MATL
project is not subordinated in any way to that of Enbridge's new ownership position. Further, it
is imperative that Western work with MATL and Enbridge to ensure implementation of project
management safeguards when project construction resumes.

Of perhaps greater importance, Western is currently working on financing projects which dwarf
MATL. For example, Western could invest as much as $1.5 billion in a potential $3 billion
transmission line project that would cross several states and hundreds of miles. To ensure it
provides adequate oversight, limits taxpayer risk and exposure, and successfully meets the intent
of its Recovery Act borrowing authority, Western should build upon the MATL experience and
apply the lessons learned going forward.

To Western's credit, officials indicated they were already integrating comprehensive internal
controls on two new projects, and has been receptive to suggestions made during the review.
Western officials also indicated that they believed that Enbridge was a very well capitalized
company and could easily fulfill the role of guarantor. In addition, the same officials noted that
“all the other security instruments in the original financing agreement remain in place (i.e.,
Western's security interest in the project's physical assets).” Western also views the experience
and resources that Enbridge brings to the table to be a very positive development for completing
the project in an expeditious manner.



                                                5
RECOMMENDATIONS

Given the challenges in managing its potential $3.25 billion project portfolio, we recommend
that the Administrator, Western Area Power Administration:

       1. Suspend investment of additional Recovery Act funds in transmission infrastructure
          projects until a root-cause analysis regarding the MATL Project is completed and
          corrective action plans for the Program are developed and implemented;

       2. Ensure that MATL implements the necessary project safeguards before construction
          resumes, including:

              •   Earned value management to allow Western to monitor project progress
                  against an updated integrated budget and schedule; and,

              •   An adequate management reserve or equivalent to fund potential cost
                  overruns;

       3. Require, as part of its future financing agreements the use of an earned value
          management system and a management reserve; and,

       4. In coordination with the Department, expedite resolution of long-term funding
          sources for the Program.

MANAGEMENT AND AUDITOR COMMENTS

The Department concurred with our recommendations and informed us of plans to improve its
oversight of Western's project management. Specifically, the Department plans to: (1) create a
monitoring capability to ensure Western is appropriately managing Program projects; and, (2)
create a structure to ensure direct and regular reporting from Western to the Deputy Secretary.
Department officials stated they would work with Western to complete the recommended root-
cause analysis and that Western would not initiate new loans until the analysis was completed
and corrective action plans for the Program were developed and implemented. The Department
also noted that it would confirm that actions had been completed for our second and third
recommendations. Finally, Department officials stated they would adopt a plan for funding the
Program no later than January 1, 2012.

Management's comments, attached in their entirety, were responsive to our recommendations.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Chief of Staff




                                               6
                      Attachment

MANAGEMENT COMMENTS




         7
    Attachment (continued)




8
    Attachment (continued)




9
     Attachment (continued)




10
     Attachment (continued)




11
                                                                  IG Report No. OAS-RA-12-01


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                        http://energy.gov/ig
       Your comments would be appreciated and can be provided on the Customer Response Form.




   .
